 FEDERAL INFORMATION SECURITY
    MANAGEMENT ACT REPORT


Fiscal Year 2008 Evaluation of the Social Security
      Administration's Compliance with the
 Federal Information Security Management Act




            September 2008       A-14-08-18063


        Patrick P. O’Carroll, Jr. – Inspector General
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                SOCIAL SECURITY

MEMORANDUM

Date:      September 19, 2008                                                            Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Fiscal Year 2008 Evaluation of the Social Security Administration’s Compliance with the
           Federal Information Security Management Act (A-14-08-18063)


           OBJECTIVE
           Our objective was to determine whether the Social Security Administration’s (SSA)
           overall security program and practices complied with the requirements of the Federal
           Information Security Management Act of 2002 (FISMA) for Fiscal Year (FY) 2008. 1

           BACKGROUND
           FISMA provides the framework for securing the Government’s information and
           information technology (IT). All agencies must implement the requirements of FISMA
           and report annually to the Office of Management and Budget (OMB) and Congress on
           the effectiveness of their security programs. FISMA requires that each agency develop,
           document and implement an agencywide information security program. 2

           OMB uses information reported pursuant to FISMA to evaluate agency-specific and
           Government-wide security performance, develop the annual security report to
           Congress, and assist in improving and maintaining adequate agency security
           performance. OMB issued FY 2008 FISMA guidance on July 14, 2008. 3

           SCOPE AND METHODOLOGY

           FISMA directs each agency’s Office of Inspector General (OIG) to perform an annual,
           independent evaluation of the effectiveness of the agency’s information security
           program and practices. 4 We contracted with PricewaterhouseCoopers, LLP (PwC) to


           1
               Pub. L. No. 107-347, Title III, Section 301 et seq., 44 U.S.C. § 3541 et seq.
           2
               Pub. L. No. 107-347, Title III, Section 301 (b)(1) § 3544 (b), 44 U.S.C. § 3544 (b).
           3
            OMB Memorandum M-08-21, FY 2008 Reporting Instructions for the Federal Information Security
           Management Act and Agency Privacy Management, July 14, 2008.
           4
               Pub. L. No. 107-347, Title III, Section 301 (b)(1) § 3545 (b), 44 U.S.C. § 3545 (b).
Page 2 - The Commissioner

audit SSA’s FY 2008 financial statements. 5 Because of the extensive internal control
system review that is completed as part of that audit, the OIG FISMA requirements were
incorporated into the PwC financial statement audit contract. This evaluation included
reviews of SSA’s mission-critical sensitive systems, as described in the Government
Accountability Office’s Federal Information System Controls Audit Manual (FISCAM).
PwC used FISMA, OMB guidance, 6 National Institute of Standards and Technology
(NIST) guidance, FISCAM, and other relevant security laws and regulations as a
framework to complete the required OIG review of SSA’s information security program
and its sensitive systems. In June 2008, the President’s Council on Integrity and
Efficiency (PCIE) issued a white paper7 related to the protection of Personally
Identifiable Information (PII), OIG access to records, and key escrow management. In
August 2008, we informed SSA that we would include an assessment of these issues in
our FISMA work since they are intrinsically related to FISMA requirements. See
Appendix D for more details on the Scope and Methodology.

SUMMARY OF RESULTS
Based on the results of OIG’s and PwC’s audit work, we determined that SSA
substantially met the FISMA requirements for FY 2008. SSA continues to work towards
maintaining a secure environment for its information and systems and has made
improvements since FY 2007 to strengthen its compliance with FISMA. For example,
SSA continues to have sound remediation, certification and accreditation (C&A), and
inventory processes. In FY 2008, SSA completed an inventory of its 20 major systems
and over 300 subsystems. Our review found the FY 2008 inventory was accurate and
complete.

SSA also maintained C&A for all 20 major systems and conducted re-certifications of
4 major systems using NIST Special Publication (SP) 800-37 guidance. 8 Over the past
3 years, we have reviewed all 20 C&As for the major systems, and they were
substantially compliant with NIST SP 800-37. We reviewed SSA’s Plans of Action and
Milestones (POA&M) process, inventory process and overall security program. See
Appendix E for the complete list of major systems and applications that have been
certified and accredited.




5
 OIG Contract Number GS-23F-0165N, March 16, 2001. FY 2008 option was exercised on
November 26, 2007.
6
    See footnote 3.
7
 PCIE Information Technology Investigations Sub-Committee Report, Key Escrow Management and File
Encryption Challenges for the Federal Inspector General Community, June 2008.
8
 NIST SP 800-37, Guide for the Security Certification and Accreditation of Federal Information Systems,
May 2004.
Page 3 - The Commissioner

Even though we noted several areas that would enhance security of SSA’s systems and
sensitive information, these issues do not rise to the level of non-compliance with
FISMA requirements either collectively or individually. SSA should ensure

•     adequate protection of PII;
•     the C&A process and the systems inventory are robust and complete to support a
      sound information security program;
•     the POA&M process appropriately maintains and monitors the remediation of
      deficiencies;
•     implementation of effective system access controls; and
•     all employees and contractors receive security awareness and specialized training.

During our FISMA review, nothing came to our attention that warranted further action
related to the PCIE’s recommendations at this time.

SSA’S EFFORTS TO PROTECT PII

Over the past several years, OMB has issued guidances on safeguarding PII and has
included specific reporting requirements in the annual FISMA guidances. The current
FISMA guidance 9 requires that agencies include the following items in an appendix to
their annual FISMA report:

•     a breach notification policy;
•     an implementation plan and progress to eliminate unnecessary use of Social
      Security numbers (SSN);
•     an implementation plan and progress update on review and reduction of holdings of
      PII; and
•     a policy outlining rules of behavior and identifying consequences and corrective
      actions available for failure to follow these rules.

SSA has included these four PII-related items in its FY 2008 FISMA submission. SSA
has created a website for employees that explains responsibilities, polices and
procedures for protecting PII. The website contains Policy and Procedures for All SSA
Employees for Reporting the Loss or Suspected Loss of Personally Identifiable
Information. In addition to training for employees, SSA is working to eliminate
unnecessary use of the SSN and reduce holdings of PII. The Agency has a policy
outlining rules of behavior 10 but needs to improve Agency-wide procedures to ensure
better identification of violations and consistent actions taken against the violators.



9
    OMB M-08-21, supra at cover page.
10
  Information Systems Security Handbook (ISSH), Rules of Behavior for Users and Managers of SSA's
Automated Information Resources, March 23, 2001.
Page 4 - The Commissioner

Stronger procedures will likely result in more consistent and appropriate handling of
violations and improve the effectiveness of the rules of behavior as a deterrent for
inappropriate activity.

The Agency has also established a PII Executive Steering Committee (ESC), which
provides oversight and recommendations on SSA policy, and the PII Breach Response
Group whose role is to engage in Agency planning in the event of a breach. While the
OIG has been included as a member in the PII Breach Response Group, it has not been
invited to fully participate in critical meetings. Similarly, OIG has not been included in
the PII ESC, as recommended by OMB. 11 By allowing the OIG to participate to the
fullest extent feasible in these groups, SSA will be better able to respond to data losses.

While SSA has taken numerous steps to protect PII, OIG audit work completed during
FY 2008 identified areas that could be improved. When developing its plan to reduce
unnecessary use of SSNs, SSA should consider a cross-section of potential SSN uses.
For example, SSA should consider information currently sent to disability determination
services (DDS) contractors providing services to beneficiaries and ensure contractors
are only receiving information they need to know. Additionally, one of our audit reports
found that SSA’s publication of the Death Master File (DMF) has resulted in the breach
of PII. Each year SSA adds 2.5 million death records in the DMF that SSA publishes to
the public with 99.59 percent accuracy rate. Our audit was limited to data between
January 2004 and April 2007 and found over 20,000 living individuals erroneously listed
as deceased on the DMF and their PII exposed. 12 The OMB requirement for Agencies
to report PII incidents to U.S. Computer Emergency Readiness Team (US-CERT) was
issued in July 2006. 13 SSA has begun to notify US-CERT and is conducting a risk
assessment to determine how to best inform the individuals erroneously listed in the
DMF. SSA has also implemented different methods and explored ways to reduce the
error cases. SSA should continue to ensure that these types of situations are
addressed in its plan to reduce the unnecessary use of SSNs. As SSA strives to
safeguard the PII in its possession, it needs to continue to assess and enhance policies
and procedures.

SSA’S CERTIFICATION AND ACCREDITATION PROCESS AND SYSTEM
INVENTORY

SSA conducted C&As for each of the 20 major systems, at least every 3 years, in
accordance with NIST Special Publication 800-37. We have cumulatively reviewed the

11
  OMB Memorandum, Recommendations for Identity Theft Related Data Breach Notification,
September 20, 2006, attachment, page 2 and OMB Memorandum M-07-16, Safeguarding Against and
Responding to the Breach of Personally Identifiable Information, May 22, 2007, page 1.
12
 OIG Report, Personally Identifiable Information Made Available to the General Public Via the Death
Master File (A-06-08-18042), May 2008.
13
   OMB Memorandum M-06-19, Reporting Incidents Involving Personally Identifiable Information and
Incorporating the Cost for Security in Agency Information Technology Investments, July 12, 2006. This
Memorandum requires agencies to report PII related incidents to US-CERT within 1 hour of the discovery
of the incident.
Page 5 - The Commissioner

20 C&As for the major systems over the past 3 years. SSA’s C&A process is
substantially compliant with FISMA and NIST requirements and standards. However,
we did note several areas where SSA could improve its C&A process.

Our review of documentation showed that SSA’s security assessment and evaluation
met the NIST security assessment requirements. However, SSA’s assessments were
largely based on examinations and interviews. We recommend that SSA increase the
depth of testing its security controls. In each of the C&A documentation packages we
reviewed this year, only limited security controls of the systems were ”tested.”14 In our
opinion, additional in-depth testing of its security controls and program would give SSA
more assurance of the soundness of its security program, particularly in light of the
rapid changes in the information security field. For example, SSA’s security control
assessment did not identify several security weaknesses in its general supporting
system that were identified by PwC’s security testing performed during the FY 2008
Financial Statement audit.

SSA could enhance the documentation of risk remediation results and residual risk in its
C&A packages, as recommended by NIST. 15 We did not find a list of POA&Ms for
some of the C&A security findings nor did we find clear documentation of residual risk
for the systems reviewed. Based on our discussion with Agency personnel, SSA is
considering improving the documentation of the system’s residual risk and will ensure
all POA&Ms are properly documented.

During our audit, we examined the completeness of SSA’s FY 2008 System Inventory
by conducting comparison and analysis, reviewing numerous documents and holding
discussions with Agency personnel regarding SSA’s annual System Inventory process.
We did note a few subsystems listed in the C&As and other documentation that were
not included in SSA’s official inventory for FY 2008. The Agency added these to the
inventory. We are not aware of any other omissions. As a result, we concluded that
SSA’s System Inventory includes more than 96 percent of the Agency’s major systems
and subsystems and were covered by the C&A process. However, SSA should ensure
consistency between its C&A documentation and official system inventory.

SSA’S PLAN OF ACTION AND MILESTONES PROCESS

OMB FISMA guidance states that the purpose of a POA&M process is to identify and
track all IT system security weaknesses in one central location. 16 SSA has designated
14
   NIST SP 800-53A Guide for Assessing the Security Controls in Federal Information Systems,
July 2008, page 9, defined 3 security control assessment methods: examine, interview and test. The
examine method is the process of reviewing, inspecting, observing, studying, or analyzing one or more
assessment objects. The interview method is the process of conducting discussions with individuals or
groups of individuals within an organization to once again, facilitate assessor understanding, achieve
clarification, or obtain evidence. The test method is to compare actual with expected behavior.
15
  NIST SP 800-30, Risk Management Guide for Information Technology Systems, July 2002, page 40,
defined Residual Risk as “The risk remaining after the implementation of new or enhanced controls is the
residual risk.”
16
     OMB M-08-21, supra, question 34 at page 13.
Page 6 - The Commissioner

the Office of the Chief Information Officer (OCIO) as the responsible component. OCIO
uses the Automated System Security Evaluation and Remediation Tracking (ASSERT)
software to monitor and report on IT security weaknesses. OCIO also uses ASSERT to
support the POA&M process that tracks identified IT security weaknesses through the
correction or remediation of these weaknesses.

We found that SSA ASSERT tool was implemented as an Agency-wide tool. However
there are areas that need improvements. We tested 20 security weaknesses that
should be included in ASSERT to test its completeness. We did not find 4 of the 20
weaknesses and its POA&M. We also noted the OCIO had experienced difficulties
receiving all reports on IT security weaknesses. Increased coordination between OCIO
and security components would improve the POA&M process.

The Agency has made progress and continues to improve its policies and procedures to
ensure all IT security weaknesses are appropriately included in the tracking and
remediation processes. The Agency needs to ensure it complies with and fully
implements these policies and procedures.

IMPLEMENTATION OF SYSTEM ACCESS CONTROLS

Controlling and limiting access to the Agency’s information systems and resources is
the first line of defense in ensuring the confidentiality, integrity, and availability of the
Agency’s IT resources. Over the years, SSA has worked to establish sufficient access
controls as evidenced by the use of Top Secret software and the System Security
Profile Project. As a result, in FY 2005, the access control issue was removed as a
reportable condition from SSA auditors’ financial statement report. However, we noted
instances where SSA’s access controls could be strengthened.

For example, some programmers had excessive access to production data of certain
SSA systems. SSA should ensure that individuals only have access to the systems that
are necessary for them to perform their duties. Another area involved access to
sensitive data held by DDS employees. 17 These are State employees who perform
services for SSA and periodically need to access SSA records.

We found that

•    some DDS employees were granted unneeded access to SSA’s sensitive data;
•    access control software did not suspend access after a period of non-use if the
     default password had never been changed; and
•    access needs for each resource contained in the DDS profiles had not been
     documented for DDS employees.

Our audit work, in FYs 2007 and 2008, observed a need to strengthen employment
suitability checks of SSA contractor personnel. We found that a number of contractor

17
  OIG report, Access to Social Security Administration Data Provided by Disability Determination
Services Positional Profiles (A-14-07-17024), September 28, 2007.
Page 7 - The Commissioner

staff did not receive background checks. 18 Therefore, these individuals should not have
been permitted to work at an SSA facility or have physical access to Agency hardware
or facilities that may contain program or sensitive information. As a result, SSA may be
exposing its sensitive data to possible compromise. SSA should continue to work to
strengthen access controls in both of these areas.

SECURITY AWARENESS AND SPECIALIZED TRAINING FOR EMPLOYEES AND
CONTRACTOR PERSONNEL

Security Awareness and Specialized Security Training for Agency Personnel and
Contractors.

SSA needs to ensure that all Agency personnel and contractors receive security
awareness training. OMB guidance states that all Agency and contractor personnel
have security awareness training each year. 19 Historically, all SSA employees have
been receiving some form of security awareness information and annually signed that
they read SSA’s security awareness policies. This year, our testing showed that, while
most SSA personnel had received security awareness, SSA could not provide
documentation for all individuals.

SSA requires that all contractor personnel read and sign annual statements that they
completed SSA’s security awareness training. This year, the Agency implemented a
process of centrally maintaining and monitoring the security awareness efforts for its
contractors. However, over 20,000 of 22,000 contractors did not receive any security
awareness training. For example, some of the contractors who did not receive security
awareness training were individuals assigned to install hardware on SSA’s network. 20

Identifying Individuals with Significant IT Security Responsibilities

According to FISMA, agencies are required to ensure that employees and contractor
personnel with significant IT security responsibilities receive security awareness and
specialized training. 21 Meeting this requirement involves two steps: identifying
individuals who have significant IT security responsibilities and ensuring these people
receive specialized training.




18
  OIG Report, The Social Security Administration's Information Technology Maintenance and Local Area
Network Relocation Contract (A-14-07-17022), May 21, 2007; OIG Report, The Social Security
Administration’s Consulting Service Contract for the Time Allocation System (A-14-08-18020), August,
2008; and OIG Report, The Social Security Administration’s Enterprise-wide Network Infrastructure
Contract (A-14-08-18014), September, 2008.
19
     OMB M-08-21, supra, question 43 at page 26.
20
  OIG Report, The Social Security Administration’s Enterprise-wide Network Infrastructure Contract
(A-14-08-18014), September, 2008.
21
     Pub. L. No. 107-347, Title III, Section 301 (b)(1) § 3544 (a)(3)(D), 44 U.S.C. § 3544 (a)(3)(D).
Page 8 - The Commissioner

In 2007, SSA developed and implemented a clear definition for the employees with
significant IT security responsibilities. 22 Our 2007 review noted numerous employees
that seemed to fit the description; however, the Agency did not identify them as having
significant IT responsibilities. This year, we observed a significant improvement in
SSA’s effort to identify employees and contractors with significant IT responsibilities.

During our review of specialized training, we noted one area related to SSA’s physical
security and overall IT security that the Agency still needs to address. Our testing noted
a small number of employees and contractors who were involved with the
implementation of Homeland Security Presidential Directive (HSPD) 12 23 who were not
identified by SSA as having significant IT responsibilities24 and therefore did not receive
any specialized training. SSA needs to ensure appropriate security training is provided
to Agency and contractor personnel with significant IT security responsibilities. SSA
has the ultimate responsibility to ensure those who could impact its systems have
sufficient security awareness and specialized training.

KEY ESCROW MANAGEMENT AND FILE ENCRYPTION CHALLENGES

In June 2008, the PCIE issued a white paper 25 to all Inspectors General regarding
concerns related to protection of PII, OIG access to records, and key escrow
management. 26 Recommendations were made to OIGs on how to better secure
protection of PII based on OMB requirements. These recommendations addressed the
following areas.

     1. Diligent protection of sensitive PII and implementation of appropriate information
        security controls.
     2. Ensuring OIG access to all (including contractor) records, reports, audits,
        reviews, documents, papers, recommendations, or other material available to
        accomplish its programs and operations.
     3. Prevention of commingling of Federal data at contractors that store SSA data.

22
   SSA’s ISSH Appendix H states;” Employees with high levels of access to sensitive data who could
affect agency-wide operations and/or who perform security, investigative, or auditing activities on a
frequent basis. Personnel in these roles have significant access to sensitive information, such as social
security records, medical records, business confidential documents, and other personally identifiable
information, which needs to be protected against unauthorized access; fraudulent activities; and
inappropriate disclosure and modification.”
23
  HSPD-12 mandates the development of a common identification standard for Federal employees and
contractors.
24
  ISSH, Appendix H, Security Training.
25
  PCIE Information Technology Investigations Sub-Committee white paper, Key Escrow Management
and File Encryption Challenges for the Federal Inspector General Community, June 2008.

26
  Key escrow is an arrangement in which the keys needed to decrypt encrypted data are held in escrow
by a third party so that, under certain circumstances, an authorized third party may gain access to those
keys.
Page 9 - The Commissioner

   4. Establishment of a key management policy that describes the goals,
      responsibilities, and overall requirements for the management of cryptographic
      keying material used to protect private or critical facilities, processes, or
      information.

While these issues are not expressly discussed in OMB’s FY 2008 FISMA guidance,
they are closely related to the intent of FISMA and OMB’s emphasis on the protection of
PII. During our FISMA review, nothing came to our attention that warranted further
action related to the PCIE’s recommendations at this time. To improve processing in
these areas, SSA is expanding policies and procedures for key escrow management,
file encryption, and standardized contract language.

CONCLUSIONS AND RECOMMENDATIONS
During our FY 2008 FISMA evaluation, we determined that SSA substantially met the
requirements of FISMA. SSA worked cooperatively with the OIG to identify ways to
comply with FISMA. SSA continues to operate a myriad of security controls to protect
its sensitive data, assets, and operations. SSA develops new policies and procedures
when required.

To continue to strengthen SSA’s overall security program and practices and to ensure
future compliance with FISMA and other information security related laws and
regulations, we recommend SSA ensure:

   1. Controls to protect PII, including reporting loss of PII, are fully implemented in
      accordance with OMB guidances.

   2. Sufficient testing of security controls in the C&A process to fully identify system
      security weaknesses.

   3. All C&As are properly and consistently prepared and include risk remediation
      results and residual risk documentation.

   4. All systems and subsystems documented in the C&A package are consistent
      with SSA’s official system inventory.

   5. All IT security weaknesses are timely reported to OCIO and properly recorded
      and monitored in the POA&M system.

   6. System access controls are fully implemented to meet least privilege criteria for
      all users of SSA’s systems.

   7. All Agency and contractor personnel receive annual security awareness.
Page 10 - The Commissioner

  8. All Agency and contractor personnel with significant IT responsibility receive
     specialized training.




                                               Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Office of the Inspector General’s Completion of the Office of
             Management and Budget’s Questions Concerning the Social Security
             Administration’s Compliance with the Federal Information Security
             Management Act

APPENDIX C – Background and Current Security Status

APPENDIX D – Scope and Methodology

APPENDIX E – Systems Certified and Accredited in Fiscal Year 2008

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                                Appendix A

Acronyms
ASSERT        Automated System Security Evaluation and Remediation Tracking
C&A           Certification and Accreditation
DDS           Disability Determination Services
DMF           Death Master File
ESC           Executive Steering Committee
FIPS          Federal Information Processing Standard
FISCAM        Federal Information System Controls Audit Manual
FISMA         Federal Information Security Management Act
FY            Fiscal Year
HSPD          Homeland Security Presidential Directive
IT            Information Technology
ISSH          Information Systems Security Handbook
NIST          National Institute of Standards and Technology
OCIO          Office of the Chief Information Officer
OIG           Office of the Inspector General
OMB           Office of Management and Budget
PCIE          President’s Council in Integrity and Efficiency
PIA           Privacy Impact Assessments
PII           Personally Identifiable Information
Pub. L. No.   Public Law Number
POA&M         Plan of Action and Milestones
PwC           PricewaterhouseCoopers LLP
SP            Special Publication
SSA           Social Security Administration
SSN           Social Security Number
U.S.C.        United States Code
US-CERT       United States Computer Emergency Readiness Team
                                                                             Appendix B
Office of the Inspector General’s Completion of the Office of
Management and Budget Questions Concerning the Social
Security Administration’s Compliance with the Federal Information
Security Management Act

                             Section C Inspector General: Question 1 and 2


Agency Name: Social Security Administration                           Submission date: 9/24/07

                                 Question 1: FISMA Systems Inventory
1. As required in FISMA, the IG shall evaluate a representative subset of systems used or operated by
an agency or by a contractor of an agency or other organization on behalf of an agency.

In the table below, identify the number of agency and contractor information systems, and the number
reviewed, by component/bureau and FIPS 199 system impact level (high, moderate, low, or not
categorized). Extend the worksheet onto subsequent pages if necessary to include all
Component/Bureaus.

Agency systems shall include information systems used or operated by an agency. Contractor
systems shall include information systems used or operated by a contractor of an agency or other
organization on behalf of an agency. The total number of systems shall include both agency systems
and contractor systems.

Agencies are responsible for ensuring the security of information systems used by a contractor of
their agency or other organization on behalf of their agency; therefore, self reporting by contractors
does not meet the requirements of law. Self-reporting by another Federal agency, for example, a
Federal service provider, may be sufficient. Agencies and service providers have a shared
responsibility for FISMA compliance.
                                            a.                     b.                        c.
                                    Agency Systems              Contractor            Total Number of
                                                                Systems            Systems (Agency and
                                                                                   Contractor systems)
                     FIPS 199                                                                     Total
Social Security       System                   Number                 Number         Total       Number
Administration Impact Level Number           Reviewed     Number Reviewed          Number       Reviewed
                  High                  0             0         0            0           0             0
                  Moderate              8             8         0            0           8             8
                  Low                  12            12         0            0          12            12
                  Not
                  Categorized           0             0         0            0           0             0
 Agency Totals    Total                20            20         0            0          20            20




                                               B-1
2. For the Total Number of Systems reviewed by Component/Bureau and FIPS System Impact Level
in the table for Question 1, identify the number and percentage of systems which have: a current
certification and accreditation, security controls tested and reviewed within the past year, and a
contingency plan tested in accordance with policy.

Question 2 : Certification and Accreditation, Security Controls Testing, and Contingency Plan Testing

                                        a.                      b.                       c.
                                    Number of          Number of systems       Number of systems for
                                 systems certified      for which security    which contingency plans
                                  and accredited       controls have been        have been tested in
                                                      tested and evaluated     accordance with policy
                                                         in the past year


                    FIPS 199
Social Security      System       Total    Percent     Total     Percent of     Total       Percent of
Administration    Impact Level   Number    of Total   Number       Total       Number         Total
                  High                 0        0.0          0          0.0             0           0.0
                  Moderate             8      40.0           8         40.0             8          40.0
                  Low                 12      60.0          12         60.0          12            60.0
                  Not
                  Categorized          0        0.0          0          0.0             0           0.0
Agency Totals     Total               20     100.0          20       100.0           20           100.0




                                              B-2
   Question 3: Evaluation of Agency Oversight of Contractor Systems and Quality of Agency System
                                              Inventory

In the format below, evaluate the agency’s oversight of contractor systems, and agency system inventory.

          The agency performs oversight and evaluation to ensure information
          systems used or operated by a contractor of the agency or other
          organization on behalf of the agency meet the requirements of
          FISMA, OMB policy and NIST guidelines, national security policy, and
          agency policy.

          Agencies are responsible for ensuring the security of information systems
          used by a contractor of their agency or other organization on behalf of their   N/A. SSA does not use
          agency; therefore, self reporting by contractors does not meet the              any systems that are
  3.a.    requirements of law. Self-reporting by another Federal agency, for              controlled or managed
          example, a Federal service provider, may be sufficient. Agencies and            by contractors or other
          service providers have a shared responsibility for FISMA compliance.            organizations

          Response Categories:
                - Rarely, for example, approximately 0-50% of the time
                - Sometimes, for example, approximately 51-70% of the time
                - Frequently, for example, approximately 71-80% of the time
                - Mostly, for example, approximately 81-95% of the time
                 - Almost Always, for example, approximately 96-100% of the time
          The agency has developed an inventory of major information
          systems (including major national security systems) operated by or
          under the control of such agency, including an identification of the
          interfaces between each such system and all other systems or
          networks, including those not operated by or under the control of the
          agency.
                                                                                          Approximately 96-
 3.b.
                                                                                          100% complete
          Response Categories:
               - Approximately 0-50% complete
               - Approximately 51-70% complete
               - Approximately 71-80% complete
               - Approximately 81-95% complete
               - Approximately 96-100% complete

          The OIG generally agrees with the CIO on the number of agency-owned
  3.c.                                                                                             Yes
          systems.


          The OIG generally agrees with the CIO on the number of information
 3.d.     systems used or operated by a contractor of the agency or other                          Yes
          organization on behalf of the agency.


  3.e.    The agency inventory is maintained and updated at least annually.                        Yes

          If the Agency IG does not evaluate the Agency’s inventory as 96-100%
          complete, please list the known missing systems by Component/Bureau,
          the Unique Project Identifier (UPI) associated with the system as
  3.f.    presented in your FY 2008 Exhibit 53 (if known), and indicate if the system              N/A
          is an agency or contractor system.




                                                  B-3
     Question 4: Evaluation of Agency Plan of Action and Milestones (POA&M) Process

Assess whether the agency has developed, implemented, and is managing an agency-wide plan of
action and milestones (POA&M) process. Evaluate the degree to which each statement reflects the
status in your agency by choosing from the responses provided. If appropriate or necessary,
include comments in the area provided.

For each statement in items 4.a. through 4.f., select the response category that best reflects the
agency's status.

      -   Rarely, for example, approximately 0-50% of the time
      -   Sometimes, for example, approximately 51-70% of the time
      -   Frequently, for example, approximately 71-80% of the time
      -   Mostly, for example, approximately 81-95% of the time
      -   Almost Always, for example, approximately 96-100% of the time

                     The POA&M is an agency-wide process,
                     incorporating all known IT security
                     weaknesses associated with information       - Almost Always, for example,
       4.a.
                     systems used or operated by the agency      approximately 96-100% of the time
                     or by a contractor of the agency or other
                     organization on behalf of the agency.
                     When an IT security weakness is
                     identified, program officials (including
                                                                  - Almost Always, for example,
       4.b.          CIOs, if they own or operate a system)
                                                                 approximately 96-100% of the time
                     develop, implement, and manage
                     POA&Ms for their system(s).
                     Program officials and contractors report
                     their progress on security weakness          - Mostly, for example,
       4.c.
                     remediation to the CIO on a regular basis   approximately 81-95% of the time
                     (at least quarterly).

                     Agency CIO centrally tracks, maintains,
                                                                  - Mostly, for example,
       4.d.          and reviews POA&M activities on at least
                                                                 approximately 81-95% of the time
                     a quarterly basis.

                       OIG findings are incorporated into the    - Almost Always, for example,
       4.e.
                       POA&M process.                           approximately 96-100% of the time
                       POA&M process prioritizes IT security
                       weaknesses to help ensure significant IT
                                                                 - Almost Always, for example,
         4.f.          security weaknesses are addressed in a
                                                                approximately 96-100% of the time
                       timely manner and receive appropriate
                       resources
POA&M process comments: 4c & 4d. Agency should improve its monitoring process to ensure
that all findings are included in the process. SSA needs to ensure that all appropriate issues from
the Financial Statement audit and low risk recommendations are accurately tracked.




                                              B-4
          Question 5: IG Assessment of the Certification and Accreditation Process
Provide a qualitative assessment of the agency's certification and accreditation process, including
adherence to existing policy, guidance, and standards. Provide narrative comments as appropriate.

Agencies shall follow NIST Special Publication 800-37, "Guide for the Security Certification and
Accreditation of Federal Information Systems" (May 2004) for certification and accreditation work
initiated after May 2004. This includes use of the FIPS 199, "Standards for Security Categorization
of Federal Information and Information Systems" (February 2004) to determine a system impact
level, as well as associated NIST document used as guidance for completing risk assessments and
security plans.
                The IG rates the overall quality of the
                Agency's certification and accreditation
                process as:

             Response Categories:
   5.a.                                                           - Good
                   - Excellent
                   - Good
                   - Satisfactory
                   - Poor
                   - Failing
             The IG's quality rating included         Security plan                 √
             or considered the following
             aspects of the C&A process:              System impact level           √
             (check all that apply)                   System test and evaluation    √
                                                      Security control testing      √
   5.b.
                                                      Incident handling             √
                                                      Security awareness training   √
                                                      Configurations/patching       √
                                         Other:
C&A process comments: SSA should enhance C&A testing to fully identify security weaknesses.




                                                B-5
  Question 6-7: IG Assessment of Agency Privacy Program and Privacy Impact Assessment
                                            (PIA) Process
        Provide a qualitative assessment of the agency's Privacy
        Impact Assessment (PIA) process, as discussed in Section D
        Question # 5 (SAOP reporting template), including adherence
        to existing policy, guidance, and standards.

         Response Categories:
  6                                                                               Excellent
          - Excellent
          - Good
          - Satisfactory
          - Poor
          - Failing

Comments:

         Provide a qualitative assessment of the agency's progress to date
         in implementing the provisions of M-07-16, Safeguarding Against
         and Responding to the Breach of Personally Identifiable
         Information.
  7
         Response Categories:                                                  Excellent
          - Excellent
          - Good
          - Satisfactory
          - Poor
          - Failing

Comments: While the Agency has made excellent progress to improve its protection of PII, there are
areas the Agency could improve. For example, the Agency needs to ensure the OIG is an active
participate in workgroups chartered to protect PII.




                             Question 8: Configuration Management

         Is there an agency-wide security configuration policy?
 8.a.                                                                                 Yes
         Yes or No.
 Comments: SSA does have agency-wide security configuration policies. However, SSA does not
have a procedure in place to monitor compliance with its Oracle configuration policy. Problems with
Oracle configuration were noted during the security testing of FY 2008 Financial Statement Audit.




                                               B-6
         Approximate the extent to which applicable systems implement
         common security configurations, including use of common security
         configurations available form the National Institute of Standards and
         Technology’s website at http://checklists.nist.gov.
                                                                                 Almost Always- for
 8.b.    Response categories:                                                    example,
                                                                                 approximately 96-
         Rarely- for example, approximately 0-50% of the time                    100% of the time
          - Sometimes- for example, approximately 51-70% of the time
          - Frequently- for example, approximately 71-80% of the time
          - Mostly- for example, approximately 81-95% of the time
          - Almost Always- for example, approximately 96-100% of the time


         Indicate which aspects of Federal Desktop Core Configuration
 8.c.
         (FDCC) have been implemented as of this report:

         c.1. Agency has adopted and implemented FDCC standard
                                                                                 Yes
         configurations and has documented deviations. Yes or No.

         c.2. New Federal Acquisition regulation 2007-004 language, which
         modified “Part 39-Acquisition of Information Technology”, is
                                                                                 No
         included in all contracts related to common security settings. Yes or
         No.

         c.3. All Windows XP and VISTA computing systems have
                                                                                 Yes
         implemented the FDCC security settings. Yes or No.
Comments: The Agency has an XP risk model and is monitoring compliance with the risk model.
The Agency does not currently have any VISTA systems in production.


                                       Questions 9,10, and 11

                                  Question 9: Incident Reporting
Indicate whether or not the agency follows documented policies and procedures for reporting
incidents internally, to US-CERT, and to law enforcement. If appropriate or necessary, include
comments in the area provided below.

        The agency follows documented policies and procedures for
 9.a.                                                                                    Yes
        identifying and reporting incidents internally. Yes or No.

        The agency follows documented policies and procedures for
 9.b.   external reporting to the US-CERT. Yes or No. (http://www.us-                    Yes
        cert.gov)

        The agency follows documented policies and procedures for
 9.c.                                                                                    Yes
        reporting to law enforcement. Yes or No.
Comments: SSA needs to improve its reporting of incidents. One of our audit reports found that
SSA’s publication of the Death Master File (DMF) erroneously included living individuals’ PII and
thereby resulted in the breach of PII. The audit was limited to data between January 2004 and April
2007 and found over 20,000 living individuals erroneously listed as deceased on the DMF and their

                                                B-7
PII exposed. In May 2008, SSA began notifying US-CERT. SSA is performing a risk analysis to
assess any impact on individuals and is planning to develop a notification policy.

                               Question 10: Security Awareness Training


Has the agency ensured security awareness training of all employees, including
contractors and those employees with significant IT security responsibilities?
                                                                                       Frequently- or
Response Categories:
                                                                                       approximately
 - Rarely- or approximately 0-50% of employees
                                                                                         71-80% of
 - Sometimes- or approximately 51-70% of employees
                                                                                        employees
 - Frequently- or approximately 71-80% of employees
 - Mostly- or approximately 81-95% of employees
 - Almost Always- or approximately 96-100% of employees

Comments: Our review showed that 58,022 SSA employees signed annual statements that they had
read SSA’s security awareness policies. Additionally, 1,607 contractors received security awareness
training. Therefore, we confirmed that 59,629 out of 83,925 employees and contractors or 71%
received security awareness.


          Question 11 Collaborative Web Technologies and Peer-to-Peer File Sharing

Does the agency explain policies regarding the use of collaborative web
technologies and peer-to-peer file sharing in IT security awareness training,                Yes
ethics training, or any other agency-wide training? Yes or No.
                         Question 12 E-Authentication Risk Assessments
12.a. Has the agency identified all e-authentication applications and validated
that the applications have operationally achieved the required assurance level in
                                                                                             Yes
accordance with the NIST Special Publication 800-63, “Electronic Authentication
Guidelines”? Yes or No.
                                                   SSA did identify all e-authentication applications.
                                                   Nothing came to our attention to indicate that the
12.b. If the response is “No”, then identify the   Agency did not validate all e-authentication
systems in which the agency has not                applications. Validation may include a wide-range of
implemented the e-authentication guidance          activities such as interviews, desk reviews, and
and indicate if the agency has a planned date      automated testing. SSA would benefit by using the
of remediation.                                    highest level of validation testing to ensure the
                                                   security of its e-authentication application.




                                                   B-8
                                                                                    Appendix C

Background and Current Security Status
The Federal Information Security Management Act (FISMA) requires that agencies
create protective environments for their information systems. It does so by creating a
framework for annual information technology (IT) security reviews; vulnerability
reporting; and remediation planning, implementation, evaluation, and documentation. 1
In Fiscal Year (FY) 2005, the Social Security Administration (SSA) resolved the
longstanding internal control reportable condition concerning its protection of
information. 2 SSA continues to work with the Office of the Inspector General and
PricewaterhouseCoopers LLP to improve security over the protection of information and
resolve other issues observed during prior FISMA reviews.

The Office of Management and Budget (OMB) continues to stress the importance of
protecting the public’s privacy and Personally Identifiable Information (PII) as emphasized
by new guidance, such as OMB Memorandum M-07-16, Safeguarding Against and
Responding to the Breach of Personally Identifiable Information. This new guidance
mandates agencies increase efforts to reduce the use of PII collected and held. OMB is
incorporating more privacy and PII protection questions in its annual FISMA guidance.
OMB Memorandum M-08-21, FY 2008 Reporting Instructions for the Federal Information
Security Management Act and Agency Privacy Management, July 14, 2008 requires
agencies to include in their annual FISMA submission the following items:

•     a breach notification policy;
•     an implementation plan and progress update to eliminate unnecessary use of Social
      Security numbers;
•     an implementation plan and progress update on the review and reduction of holdings
      of PII; and
•     a policy outlining rules of behavior and identifying consequences and corrective
      actions available for failure to follow these rules.

In addition, OMB Memorandum M-08-21 requires that Inspectors General rate the quality of
agencies’ Privacy Impact Assessment process and progress on implementing OMB
Memorandum M-07-16.




1
    Pub. L. No. 107-347, Title III, Section 301 et seq,, 44 U.S.C. § 3541 et seq.
2
    SSA’s FY 2005 Performance and Accountability Report, page 163.


                                                       C-1
This report informs Congress and the public about the Federal Government's security
performance, and fulfills OMB's requirement under FISMA to submit an annual report to
Congress. It provides OMB's assessment of Government-wide IT security strengths
and weaknesses and a plan of action to improve performance. The Committee on
Oversight and Government Reform issues an annual Report Card on Computer
Security at Federal Departments and Agencies. SSA has received a score of A+ and A
over the past 2 years.




                                         C-2
                                                                                    Appendix D

Scope and Methodology
The Federal Information Security Management Act (FISMA) directs each agency’s
Office of Inspector General (OIG) to perform, or have an independent external auditor
perform, an annual independent evaluation of the agency’s information security program
and practices, as well as a review of an appropriate subset of agency systems. 1 The
Social Security Administration’s (SSA) OIG contracted with PricewaterhouseCoopers
LLP (PwC) to audit SSA’s Fiscal Year (FY) 2008 financial statements. Because of the
extensive internal control system work that is completed as part of that audit, our FISMA
review requirements were incorporated into the PwC financial statement audit contract.
This evaluation included Federal Information System Controls Audit Manual (FISCAM)
level reviews of SSA’s mission-critical sensitive systems. PwC performed an “agreed-
upon procedures” engagement using FISMA, the Office of Management and Budget
(OMB) Memorandum M-08-21, FY 2008 Reporting Instructions for the Federal
Information Security Management Act and Agency Privacy Management, National
Institute of Standards and Technology guidance, FISCAM, and other relevant security
laws and regulations as a framework to complete the OIG required review of SSA’s
information security program and practices and its sensitive systems. We also
considered the security implications of OMB Memorandum M-07-16.

The results of our FISMA evaluation are based on the PwC FY 2008 Independent
Accountants’ Report on Applying Agreed-Upon Procedures report and working papers
and various audits and evaluations performed by this office. We also reviewed the final
draft of SSA's FY 2008 Security Program Review as required by the Federal Information
Security Management Act.

Our major focus was an evaluation of SSA’s plan of action and milestones (POA&M)
process, risk models and configuration settings, certifications and accreditations (C&A),
and systems inventory processes. Our evaluation of SSA’s POA&Ms included an
analysis of Automated Security Self-Evaluation and Remediation Tracking system and
its policies. Our review of the Agency’s C&A process included an analysis of the C&As
for each of the 20 major systems. We also reviewed SSA’s updated systems inventory
and the policy for the update processes. In addition, we considered the impact of
related OIG FY 2008 audits.

We also reviewed the Agency’s work and status in areas highlighted by a President’s
Council on Integrity and Efficiency report, Key Escrow Management and File Encryption
Challenges for the Federal Inspector General Community, issued in June 2008. The
report addressed concerns related to protection of Personally Identifiable Information
(PII), OIG access to records, and key escrow management. 2 While these issues are not
1
    Pub. L. No. 107-347, Title III, Section 301 (b)(1) § 3545, 44 U.S.C § 3545.

2
 Key escrow is an arrangement in which the keys needed to decrypt encrypted data are held in escrow
by a third party so that, under certain circumstances, an authorized third party may gain access to those
keys.
                                                      D-1
expressly discussed in the OMB’s FY 2008 FISMA guidance, they are closely related to
the intent of FISMA and OMB’s emphasis on the protection of PII. Therefore, we have
included steps to address these issues in our review.

We performed field work at SSA facilities nationwide from March to September 2008.
We considered the results of other OIG audits performed in FY 2008. We conducted
this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.




                                         D-2
                                                                      Appendix E

Systems Certified and Accredited in Fiscal Year 2008
#                            System                                   Acronym
                 General Support Systems
1   Audit Trail System                                         ATS
2   Comprehensive Integrity Review Process                     CIRP

3   Death Alert, Control and Update System                     DACUS

4   Debt Management System                                     DMS

5   Enterprise Wide Mainframe & Distributed Network            EWAN
    Telecommunications Services System
6   FALCON Data Entry System                                   FALCON

7   Human Resources Management Information System              HRMIS

8   Integrated Client Database                                 ICDB

9   Integrated Disability Management System                    IDMS

10 Lenel Security Access System                                LSAS

11 Quality Assurance Systems                                   QA

12 Social Security Online Accounting & Reporting System        SSOARS
13 Security Unified Measurement System                         SUMS


                      Major Applications
1   Electronic Disability System                               eDib
2   Earnings Record Maintenance System                         ERMS
3   Recovery of Overpayments, Accounting and Reporting         ROAR
    System
4   Retirement, Survivors & Disability Insurance Accounting    RSDI
    System
5   Social Security Number Enumeration and Correction System   SSNECS
6   Supplemental Security Income Record Maintenance System     SSIRMS

7   Title II System                                            T2
                                                                     Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kitt Winter, Director, Information Technology Audit Division, (410) 965-9702

   Phil Rogofsky, Audit Manager, Information Technology Audit Division,
   (410) 965-9719

Acknowledgments

In addition to the persons named above:

   Grace Chi, Auditor in Charge

   Tina Nevels, Auditor

   Michael Zimmerman, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-14-08-18063.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform, House of
Representatives
Chairman and Ranking Minority Member, Committee on Science, House of
Representatives
Chairman and Ranking Minority Member, Committee on Governmental Affairs, U.S.
Senate
Chairman and Ranking Minority Member, Committee on Commerce, Science and
Transportation, U.S. Senate
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
